                             SOCIAL SECURITY
                             Office of the Inspector General


                                       May 28, 2010

The Honorable Jim McDermott
Chairman, Subcommittee on
 Income Security and Family Support
Committee on Ways and Means
House of Representatives
Washington, D.C. 20515-6348

Dear Mr. McDermott:

In a January 14, 2010 letter, you asked that we provide information about the Social
Security Administration’s (SSA) oversight of representative payees who also act as
employers to the beneficiaries they serve. Specifically, we were requested to provide
information regarding SSA’s

•   actions to monitor Hill Country Farms, Incorporated, before the news of the
    beneficiaries’ living conditions became public;
•   actions to monitor Hill Country Farms, Incorporated, after the news of the
    beneficiaries’ living conditions became public;
•   procedures for selecting representative payees;
•   measures to prevent a similar scenario from occurring;
•   changes to its procedures in light of the Hill Country Farms, Incorporated, situation;
•   contract with National Disability Rights Network and the work completed; and
•   actions, if any, regarding the payees reviewed by National Disability Rights Network.

The attached report provides the information requested. My office is committed to
combating fraud, waste, and abuse in SSA’s operations and programs. Thank you for
bringing your concerns to my attention. To ensure SSA is aware of the information
provided to your office, we are forwarding a copy of this report to the Agency.




            SOCIAL SECURITY ADMINISTRATION          BALTIMORE MD 21235-0001
Page 2 - The Honorable Jim McDermott


If you have any questions concerning this matter, please call me or have your staff
contact Misha Kelly, Congressional and Intra-governmental Liaison at (202) 358-6319.

                                                    Sincerely,




                                                    Patrick P. O’Carroll, Jr.
                                                    Inspector General

Enclosure

cc:
Michael J. Astrue
                             SOCIAL SECURITY
                             Office of the Inspector General


                                       May 28, 2010

The Honorable Earl Pomeroy
Chairman, Subcommittee on Social Security
Committee on Ways and Means
House of Representatives
Washington, D.C. 20515-6348

Dear Mr. Pomeroy:

In a January 14, 2010 letter, members of Congress asked that we provide information
about the Social Security Administration’s (SSA) oversight of representative payees
who also act as employers to the beneficiaries they serve. Specifically, we were
requested to provide information regarding SSA’s

•   actions to monitor Hill Country Farms, Incorporated, before the news of the
    beneficiaries’ living conditions became public;
•   actions to monitor Hill Country Farms, Incorporated, after the news of the
    beneficiaries’ living conditions became public;
•   procedures for selecting representative payees;
•   measures to prevent a similar scenario from occurring;
•   changes to its procedures in light of the Hill Country Farms, Incorporated, situation;
•   contract with National Disability Rights Network and the work completed; and
•   actions, if any, regarding the payees reviewed by National Disability Rights Network

The attached report provides the information requested. My office is committed to
combating fraud, waste, and abuse in SSA’s operations and programs. Thank you for
bringing your concerns to my attention. To ensure SSA is aware of the information
provided to your office, we are forwarding a copy of this report to the Agency.




            SOCIAL SECURITY ADMINISTRATION          BALTIMORE MD 21235-0001
Page 2 - The Honorable Earl Pomeroy


If you have any questions concerning this matter, please call me or have your staff
contact Misha Kelly, Congressional and Intra-governmental Liaison at (202) 358-6319.

                                                    Sincerely,




                                                    Patrick P. O’Carroll, Jr.
                                                    Inspector General

Enclosure

cc:
Michael J. Astrue
                             SOCIAL SECURITY
                             Office of the Inspector General


                                       May 28, 2010

The Honorable John Linder
Ranking Member, Subcommittee on
 Income Security and Family Support
Committee on Ways and Means
House of Representatives
Washington, D.C. 20515-6348

Dear Mr. Linder:

In a January 14, 2010 letter, you asked that we provide information about the Social
Security Administration’s (SSA) oversight of representative payees who also act as
employers to the beneficiaries they serve. Specifically, we were requested to provide
information regarding SSA’s

•   actions to monitor Hill Country Farms, Incorporated, before the news of the
    beneficiaries’ living conditions became public;
•   actions to monitor Hill Country Farms, Incorporated, after the news of the
    beneficiaries’ living conditions became public;
•   procedures for selecting representative payees;
•   measures to prevent a similar scenario from occurring;
•   changes to its procedures in light of the Hill Country Farms, Incorporated, situation;
•   contract with National Disability Rights Network and the work completed; and
•   actions, if any, regarding the payees reviewed by National Disability Rights Network.

The attached report provides the information requested. My office is committed to
combating fraud, waste, and abuse in SSA’s operations and programs. Thank you for
bringing your concerns to my attention. To ensure SSA is aware of the information
provided to your office, we are forwarding a copy of this report to the Agency.




            SOCIAL SECURITY ADMINISTRATION          BALTIMORE MD 21235-0001
Page 2 - The Honorable John Linder


If you have any questions concerning this matter, please call me or have your staff
contact Misha Kelly, Congressional and Intra-governmental Liaison at (202) 358-6319.

                                                    Sincerely,




                                                    Patrick P. O’Carroll, Jr.
                                                    Inspector General

Enclosure

cc:
Michael J. Astrue
                             SOCIAL SECURITY
                             Office of the Inspector General


                                       May 28, 2010

The Honorable Sam Johnson
Ranking Member, Subcommittee on Social Security
Committee on Ways and Means
House of Representatives
Washington, D.C. 20515-6348

Dear Mr. Johnson:

In a January 14, 2010 letter, you asked that we provide information about the Social
Security Administration’s (SSA) oversight of representative payees who also act as
employers to the beneficiaries they serve. Specifically, we were requested to provide
information regarding SSA’s

•   actions to monitor Hill Country Farms, Incorporated, before the news of the
    beneficiaries’ living conditions became public;
•   actions to monitor Hill Country Farms, Incorporated, after the news of the
    beneficiaries’ living conditions became public;
•   procedures for selecting representative payees;
•   measures to prevent a similar scenario from occurring;
•   changes to its procedures in light of the Hill Country Farms, Incorporated, situation;
•   contract with National Disability Rights Network and the work completed; and
•   actions, if any, regarding the payees reviewed by National Disability Rights Network.

The attached report provides the information requested. My office is committed to
combating fraud, waste, and abuse in SSA’s operations and programs. Thank you for
bringing your concerns to my attention. To ensure SSA is aware of the information
provided to your office, we are forwarding a copy of this report to the Agency.




              SOCIAL SECURITY ADMINISTRATION       BALTIMORE, MD 21235-0001
Page 8 - The Honorable Sam Johnson


If you have any questions concerning this matter, please call me or have your staff
contact Misha Kelly, Congressional and Intra-governmental Liaison at (202) 358-6319.

                                                    Sincerely,




                                                    Patrick P. O’Carroll, Jr.
                                                    Inspector General

Enclosure

cc:
Michael J. Astrue
  CONGRESSIONAL RESPONSE
         REPORT

   The Social Security Administration’s
Oversight of Employer Representative Payees

               A-13-10-20125




                 May 2010
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                                                              Background
OBJECTIVE
Our objective was to provide information regarding the Social Security Administration’s
(SSA) oversight of representative payees who also act as employers for the
beneficiaries they serve.

BACKGROUND
Some individuals cannot manage or direct the management of their finances because of
their youth and/or mental or physical impairments. Congress granted SSA the authority
to appoint representative payees to receive and manage these beneficiaries’ benefit
payments. 1 A representative payee may be an individual or an organization. SSA
selects representative payees for Old-Age, Survivors and Disability Insurance 2 and/or
Supplemental Security Income 3 beneficiaries 4 when representative payments would
serve the individual’s interests.5

In a January 2010 letter, the Chairmen and Ranking Members of the House
Subcommittees on Social Security and Income Security and Family Support, Committee
on Ways and Means, wrote “…there were numerous media reports regarding SSA
beneficiaries who worked for Henry’s Turkey Service. One article questioned whether
the Texas-based Henry’s Turkey Service paid mentally disabled men a pittance to work
for an Iowa meat processing plant and stated that the men were housed in deplorable
conditions by the job broker. Since many of these men were Social Security
beneficiaries, [the Subcommittee members] were concerned about whether SSA has
appropriate monitoring in place to ensure other beneficiaries are not in the same
situation.”




1
    Social Security Act §§ 205(j) and 1631(a)(2; 42 U.S.C. §§ 405(j) and 1383(a)(2).
2
 The Old-Age, Survivors and Disability Insurance program provides benefits to qualified retired and
disabled workers and their dependents as well as to survivors of insured workers (Social Security Act
§ 201 et seq., 42 U.S.C. § 401 et seq.).
3
 The Supplemental Security Income program provides payments to individuals who have limited income
and resources; and who are age 65 or older, blind or disabled (Social Security Act § 1601 et seq.,
42 U.S.C. § 1381 et seq.).
4
  The term “beneficiary” is used generically in this report to refer to both Old-Age, Survivors and Disability
Insurance beneficiaries and Supplemental Security Income recipients.
5
    See Footnote 1.


SSA’s Oversight of Employer Representative Payees (A-13-10-20125)                                            1
Members of the two Subcommittees requested information about SSA’s oversight of
representative payees who also act as employers to the beneficiaries they serve.
Information requested pertained to seven specific issues concerning SSA’s
Representative Payment Program. See Appendix B for the scope and methodology of
our review.




SSA’s Oversight of Employer Representative Payees (A-13-10-20125)                  2
                                                             Results of Review
Issue 1: SSA’s Actions to Monitor Hill Country Farms, Incorporated (HCF), Prior
to the News of the Beneficiaries’ Living Conditions Becoming Public

From 1979 to 2009, the Agency reported its monitoring as (a) working with the payee
concerning “in-kind room and board,” 6 and the physical location of beneficiaries;
(b) providing information about Impairment-Related Work Expenses (IRWE); 7
(c) discussing responsibilities and questions with the payee; and (d) receiving the
annual payee accounting reports.

In December 1979, SSA staff provided HCF guidance regarding in-kind room and board
as it related to wage payments. At that time, the Agency acknowledged workers
(beneficiaries) lived, and were employed at, HCF in Goldthwaite, Texas, and other
locations.

On February 16, 1984, the Agency reported it issued a “special determination”
regarding the value of IRWE for beneficiaries working at HCF. The special
determination described work performed, identified the level of work supervision, and
provided a computation for determining IRWE amounts. In addition, there were
memorandums approving the IRWE computation.

In April 1997, SSA staff met with HCF staff to explain reporting responsibilities of, and
answer questions for, the representative payee. During this meeting, it was
acknowledged (1) beneficiaries worked for $65 or less each month; (2) beneficiaries
were moving between Goldthwaite, Texas, and Atalissa, Iowa; (3) a “flat fee” was
charged for room and board at both locations; and (4) HCF would report moves of SSA
beneficiaries to the Agency when the move involved 1 full calendar month or longer.

Lastly, SSA reported that HCF returned Representative Payee Reports (RPR) for its
beneficiaries. Representative payees must annually complete and submit an RPR for
each beneficiary served. The RPR is intended to assist SSA in determining the use of
benefit payments during the preceding 12-month reporting period. SSA reported HCF
completed and returned appropriate RPRs for its beneficiaries. Further, Agency staff
stated their review of the RPRs did not indicate any problems with this payee. 8


6
 SSA Handbook, § 2141 states “in-kind support and maintenance" means unearned income in the form
of food or shelter received and is paid for by someone else. Shelter includes room, rent, mortgage
payments, real property taxes, heating fuel, gas, electricity, water, sewage, and garbage collection
service.
7
  IRWE are for items or services that are directly related to enabling a person with a disability to work and
that are necessarily incurred by that individual because of a physical or mental impairment.
8
    We did not review the RPRs to determine whether they were received or problems identified.


SSA’s Oversight of Employer Representative Payees (A-13-10-20125)                                           3
SSA reported that, as of March 2010, HCF had not been subject to an on-site payee
review. According to Agency staff, before June 2000, SSA limited its on-site monitoring
to State mental institutions. The Social Security Protection Act of 2004 9 requires that
SSA conduct periodic site reviews of certain types of representative payees. However,
HCF did not meet the criteria for SSA’s triennial representative payee on-site review 10
because it served fewer than 50 beneficiaries.

Issue 2: SSA’s Actions to Monitor HCF, Incorporated, After the News of the
Beneficiaries’ Living Conditions Became Public

In February 2009, several news articles reported substandard living conditions for HCF
beneficiaries working in Iowa. At that time, according to SSA, HCF was representative
payee for 26 beneficiaries: 20 in Iowa and 6 in Texas. As of February 27, 2009, the
Agency reported that new payees had been appointed for all 26 beneficiaries.

According to SSA, beginning in June 2009, actions were taken to recover beneficiaries’
conserved funds 11 from HCF. On June 25, 2009, the Agency reported receiving
conserved funds for 16 of the 26 beneficiaries. SSA requested the conserved funds for
the remaining 10 beneficiaries. SSA received information on July 10, 2009, from the
former payee about the funds; however, HCF had not returned conserved funds for the
10 remaining beneficiaries.

SSA submitted information pertaining to the 10 beneficiaries’ conserved funds to our
Office of Investigations for review. After SSA’s referrals regarding the conserved funds,
our Office of Investigations suspended its work because other law enforcement
agencies were investigating HCF.




9
 Pub. L. No. 108-203 § 102. The mandatory onsite review provisions were incorporated into sections
205(j)(6)(A) and 1631(a)(2)(G)(i) of the Social Security Act, 42 U.S.C. §§ 405(j)(6)(A) and
1383(a)(2)(G)(i).

10
  Triennial reviews are required for high-volume organizational and individual payees as well as fee-for-
service representative payees. High volume is defined as 50 or more beneficiaries for an organizational
payee and 15 or more beneficiaries for an individual representative payee.
11
  Conserved funds are the benefits held by a representative payee on the beneficiary’s behalf. They
should be returned to SSA after a change in payee.


SSA’s Oversight of Employer Representative Payees (A-13-10-20125)                                           4
Issue 3: SSA’s Current Procedures for Selecting Representative Payees

According to Agency policy,

           SSA's guiding principle in the decision of whether or not to certify
           payments through a representative payee is to ensure the physical,
           mental, and emotional well-being of the beneficiary in a manner which
           both preserves dignity and protects basic rights. A beneficiary who is
           incapable of managing or directing someone else to manage funds
           should be paid through a third party. This third party is called a
           representative payee or sometimes simply, a payee. The decision to
           appoint a representative payee is never made as a convenience or
           choice of the beneficiary or from a desire to protect a beneficiary, but
           rather it is a decision based on the beneficiary's capability. 12

Once it is decided a beneficiary needs a payee, Agency policy states “…all applicants
must be carefully screened and considered before a selection is made to ensure that
the beneficiary’s best interest is served.” 13 Further, policy indicates Agency staff uses
preference lists when selecting a payee for minor child and adult beneficiaries. Some of
the applicants identified on the preference list include a parent or other relative with
custody or someone who shows strong concern; a spouse or legal guardian; or a public
or nonprofit agency or institution. 14

According to SSA policy, Agency staff also uses information obtained on the
representative payee application to evaluate the applicant's qualifications and suitability
to serve as payee. 15 SSA is legally required to verify identity and Social Security
number information supplied by payee applicants. Also, verifying other information,
such as income and custody, may help determine an applicant’s suitability. 16

To assist in the payee selection process, Agency policy indicates SSA’s Representative
Payee System (RPS) contains data about payees' past performance and criminal
history. 17 The Agency reported RPS contains some criminal history information for
some payees. According to the Agency, RPS does not necessarily provide a complete
criminal history for any person. The policy further states RPS “…helps the Agency fulfill



12
     SSA, POMS, GN 00502.001.
13
     SSA, POMS, GN 00502.105.
14
     Id.

15
     SSA, POMS, GN 00502.107
16
     SSA, POMS GN 00502.117.
17
     SSA, POMS, GN 00502.107.


SSA’s Oversight of Employer Representative Payees (A-13-10-20125)                         5
its legal duty to investigate applicants” and “…make well informed payee selection
decisions.”18 For example, RPS will facilitate verification of

•      Social Security number and employer identification number;
•      receipt of Social Security and Supplemental Security Income benefit payments; and
•      whether the applicant has a history of criminal activity, poor payee performance, or
       misuse. 19

Due to the time constraints for this review, we did not confirm whether Agency staff
complied with policy when making decisions on selecting new representative payees.
Further, we did not confirm whether the selection of HCF as a payee complied with
Agency policy.

Issue 4: SSA’s Measures to Prevent a Similar Scenario from Occurring

The Agency reported it took action to ensure other employer payees were not exploiting
beneficiaries. SSA stated it identified 2,527 representative payees who employed
beneficiaries. According to SSA staff, the Agency requested that State Protection and
Advocacy (P&A) agencies review these employers and identify any potentially
problematic payees. Agency staff indicated P&As receive grants from SSA to provide
advocacy and other services disabled beneficiaries need to secure or regain gainful
employment. Staff further explained the P&As are a source of information about
employer payees; and SSA used information provided by the P&As and its own internal
screening processes to select 328 payees for further review.

Emergency instructions were issued to SSA field offices, and the Agency reported its
staff conducted special reviews of the selected payees. The Agency reported these
special reviews required that staff visit working beneficiaries at their places of
employment. The reviews also included visits to the beneficiaries’ residences if the
payees also provided housing. The Agency affirmed all 328 reviews of employer
payees were completed by October 2009. SSA reported these special reviews did not
uncover any significant problems related to the employers’ performance as
representative payees.

Our review of information recorded on SSA’s Representative Payee Monitoring Website
indicated no significant problems were identified during the special reviews. However,
we did not independently determine whether SSA staff followed policies and procedures
when performing these reviews. We requested SSA provide information about actions
taken to ensure its staff complied with policies and procedures when conducting these
reviews. Based on the Agency’s April 26, 2010 response, we do not believe there is a
quality review process in place to ensure compliance.


18
     SSA, POMS, GN 00502.120 A.
19
     Id.


SSA’s Oversight of Employer Representative Payees (A-13-10-20125)                             6
In a March 2010 report, 20 we discussed the working and living conditions of Social
Security beneficiaries served by payees who may have also been acting as employers
or job placement/referral services. We conducted site visits to review working and/or
living conditions of certain beneficiaries served by 48 payees. With one exception, we
concluded the working and living conditions for the beneficiaries were adequate. We
continue to believe such payee-beneficiary relationships should be subject to periodic
special monitoring. Further, we reported, and SSA agreed, “…that payees who are
employers or are providing job placement/referral services should continue to receive
special oversight, especially when they act as landlords. This will provide added
protection to our most vulnerable beneficiaries.”

In addition to these special reviews, the Agency contracted with the National Disability
Rights Network (NDRN) to review 350 employer representative payees by the end of
Fiscal Year 2010. The P&As—not the Agency—are scheduled to complete these
350 reviews this year.

Issue 5: SSA’s Changes to its Procedures in Light of HCF, Incorporated Situation

SSA reported it continues to monitor employer payees using its existing partnership with
the P&As and NDRN. According to the Agency, the P&As are positioned to assist
beneficiaries with issues outside SSA’s purview and expertise. When conducting the
employer-payee reviews, SSA stated the P&As will follow procedures patterned on the
emergency instructions issued for its special reviews. The Agency reported that results
from the additional 350 employer-payee reviews will provide significant information to
assist SSA in determining what additional changes, if any, are needed in its procedures.

An internal quality control process is important to ensure the employer-payee reviews
conducted by the P&As follow appropriate procedures. Using an independent process
to assess compliance will enable SSA to determine whether the reviews were
conducted as intended. The Agency stated that a quality review process is in place.
However, we have not verified that this process ensures the P&As complied with
policies and procedures when conducting these reviews. Once the P&A reviews are
completed, we plan to examine a sample of the reviews performed by both the Agency
and the P&As. Our work will focus on determining whether the reviews complied with
applicable policies and procedures.

Issue 6: SSA’s Contract with the NDRN and Work Completed to Date

SSA reported on September 30, 2009 it awarded a contract to NDRN for $2.1 million for
base year services. 21 According to the Agency, “Under the contract, NDRN trains and
assists the P&As in their investigations and monitoring of representative payees. As

20
  SSA, OIG, Congressional Response Report: Representative Payees Who Employ Beneficiaries or
Provide Employment Services (A-13-10-11013), March 2010.
21
  The Agency indicated this contract covers a possible 4-year option period. If SSA exercises all 4 option
years, the maximum value of the contract will be $10.7 million.


SSA’s Oversight of Employer Representative Payees (A-13-10-20125)                                       7
part of the contract, NDRN will also reimburse the P&As for costs associated with
reviewing the 350 employer-payees.” Further, SSA reported it sets policy for all
representative payee activity, and NDRN uses this policy to oversee the efforts of the
P&As in conducting employer-payee reviews.

The contract states the P&As are to complete employer-payee reviews, prepare
summaries, and submit their findings electronically to NDRN. NDRN submits reports to
SSA staff as reviews are completed. SSA regional office staff performs follow-up
activities when reviews indicate inappropriate or illegal activities that are within SSA’s
purview. If reviews identify concerns that pertain to other regulatory authorities, such as
violations of the Fair Labor Standards Act (FLSA), the P&As will forward referrals to the
appropriate Federal, State, or local agencies.

Of the 350 employer-payee reviews included in the contract, as of December 2009,
SSA had identified 324 employer payees for review. However, in March 2010, the
Agency reported it reduced the number of payees identified for review from 324 to
321. 22 As of March 19, 2010, NDRN had completed 55 reviews. SSA indicated it will
identify the remaining 29 payees for review in collaboration with NDRN and the P&As.
The payees identified must be approved by NDRN and SSA before the review is
authorized.

Issue 7: SSA’s Actions Regarding the Payees Reviewed by NDRN

Of the 55 employer-payee reviews completed as of March 2010, SSA stated that
53 representative payees “…execute and administer their responsibilities appropriately.”
SSA indicated it received reports on two employer representative payees that identified
possible misuse of funds and/or violations of the FLSA. Misuse of beneficiaries’ funds
occurs when the payee neither uses benefits for the current and foreseeable needs of
the beneficiary nor conserves remaining benefits for the future needs of the beneficiary.
In addition, section 214(c) of the FLSA authorizes employers, after receiving a
certificate from the Department of Labor (DoL), Wage and Hour Division, to pay special
minimum wages to workers who have disabilities. 23

According to the Agency, one report identified significant problems, including possible
misuse of benefits and possible violations of the FLSA. As of April 2010, SSA reported
its staff was determining whether misuse had occurred. Furthermore, the P&As
reported the employer payee possibly violated the FLSA by paying sub-minimum wages
without a current certificate from DoL. SSA indicated this information was referred to
DoL for further action in March 2010. Another report indicated possible violations of the
FLSA occurred because the employer payee also possibly paid sub-minimum wages
without a current certificate issued by DoL. The Agency reports this matter was also
referred to DoL for further action in March 2010.

22
  One payee was included twice in the 324 count; 1 payee no longer served as an employer or payee to
beneficiaries; and 1 payee was recently reviewed by SSA.
23
     29 U.S.C. § 214(c).


SSA’s Oversight of Employer Representative Payees (A-13-10-20125)                                      8
                                                                               Conclusions
Between 1979 and 2009, before news reports surfaced about the beneficiaries’ living
conditions, the Agency had contact with HCF regarding specific eligibility issues.
However, the Agency reported HCF had not been subject to an on-site payee review. 24

In February 2009, several news articles reported substandard living conditions for HCF
beneficiaries working in Iowa. The Agency reported that, as of February 27, 2009, new
representative payees had been appointed for the beneficiaries. SSA received
conserved funds for many, but not all, of the beneficiaries.

Since the HCF situation came to light, SSA has taken action to increase monitoring of
payees who are also employers. In 2009, SSA reported its staff conducted special
reviews of 328 employer payees. The Agency reported it did not detect significant
problems related to performance of duties for these representative payees. Further,
SSA has contracted with NDRN to review 350 additional employer payees.

We believe an internal quality control process is important to ensure the employer
payee reviews conducted by SSA staff and P&As follow appropriate procedures. Once
the P&A reviews are completed, we plan to examine a sample of the reviews performed
by both the Agency and the P&As. Our work will focus on determining whether the
reviews complied with applicable policies and procedures.




24
     The Agency reported, prior to June 2000, it limited onsite monitoring to state mental institutions.


SSA’s Oversight of Employer Representative Payees (A-13-10-20125)                                          9
                                           Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology




SSA’s Oversight of Employer Representative Payees (A-13-10-20125)
                                                                    Appendix A

Acronyms

    DoL                Department of Labor

    FLSA               Fair Labor Standards Act

    HCF                Hill Country Farms, Incorporated

    IRWE               Impairment-Related Work Expenses

    NDRN               National Disability Rights Network

    OIG                Office of the Inspector General

    P&A                State Protection and Advocacy

    POMS               Program Operations Manual System

    Pub. L. No.        Public Law Number

    RPR                Representative Payee Report

    RPS                Representative Payee System

    SSA                Social Security Administration

    U.S.C.             United States Code




SSA’s Oversight of Employer Representative Payees (A-13-10-20125)
                                                                      Appendix B

Scope and Methodology
We collected and reviewed information specific to the issues identified in the
January 14, 2010 letter from the Chairmen and Ranking Members of the House
Subcommittees on Social Security and Income Security and Family Support. The letter
requested our assistance in determining whether the Social Security Administration
(SSA) was performing adequate oversight of its representative payees.

To achieve our objective, we:

•   Reviewed applicable Federal laws and regulations and SSA’s policies and
    procedures.

•   Coordinated with SSA’s Office of Public Service and Operations Support to identify
    actions to monitor Hill Country Farms, Incorporated, (HCF) before and after news of
    the beneficiaries’ living conditions became public.

•   Obtained information from our Office of Investigations regarding the actions taken by
    SSA to monitor HCF before and after the news of the beneficiaries’ living conditions
    became public.

•   Coordinated with SSA’s Offices of Income Security Programs, Supplemental
    Security Income, and Representative Payee Policy for (1) current procedures for
    selecting representative payees; (2) measures to prevent a similar scenario from
    occurring; and (3) changes to Agency procedures in light of the HCF situation.

•   Obtained information from SSA’s Office of Employment Support Programs, Office of
    Beneficiary Outreach and Employment Support, regarding the contract with the
    National Disability Rights Network, the work completed to date, and actions taken for
    the payees reviewed.

The entities reviewed were the Offices of the Deputy Commissioners for Operations and
Retirement and Disability Policy. We performed our review in Baltimore, Maryland, in
March and April 2010. We conducted our review in accordance with the Council of the
Inspectors General on Integrity and Efficiency’s Quality Standards for Inspections.




SSA’s Oversight of Employer Representative Payees (A-13-10-20125)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
